                                        Testimony of 


                       THE HONORABLE TODD J. ZINSER 

                            INSPECTOR GENERAL 

                          U.S. DEPARTMENT OF COMMERCE

                                 before a field hearing of the

 Subcommittee on Federal Financial Management, Government Information, 

               Federal Services, and International Security 

                           United States Senate 


                                  Monday, June 20, 2011



     How Is NOAA Managing Funds to Protect the Domestic 

                   Fishing Industry? 


Chairman Carper, Ranking Member Brown, and Members of the Subcommittee:

We appreciate the opportunity to testify on the actions NOAA is taking to better manage funds to
protect the domestic fishing industry. My testimony today will focus on NOAA’s use of an asset
forfeiture fund (AFF) authorized by the Magnuson-Stevens Fishery Conservation and
Management Act (MSA) to pay for investigation or enforcement activities related to the fishing
industry. I will discuss our history of work related to the AFF and NOAA’s enforcement
activities, describe NOAA’s efforts to correct these issues, explain our latest work, and offer
further suggestions for strengthening NOAA’s management of the AFF.



BACKGROUND ON FISHERIES ENFORCEMENT AND THE AFF

NOAA’s Office for Law Enforcement (OLE) and the General Counsel for Enforcement and
Litigation (GCEL) play a pivotal role in the enforcement of fishing regulations. In August 2009,
when we performed our first review, OLE’s headquarters and six divisions staffed almost 150
criminal investigators and 15 enforcement officers. The office’s work is primarily civil and
administrative in nature, focusing on the protection of the nation’s fisheries and enforcing
compliance with regulations. However, OLE also has authority to enforce over 37 statutes,
including criminal provisions in certain statutes, as well as numerous treaties related to the
conservation and protection of marine resources. GCEL is also a key part of fishery enforcement;
its staff of approximately 17 attorneys, managers, and support personnel processes civil penalty
cases, permit sanctions, and administrative forfeitures.
At the time of our January 2010 report, 65 percent of OLE’s cases were related to the MSA. The
MSA gives NOAA the authority to retain and use proceeds from the civil and criminal penalties
imposed and collected as part of its enforcement actions. Most violations of the act, such as
exceeding catch limits, result in civil fines and penalties alone. NOAA is also permitted to use
proceeds from assets (such as fish or vessels) that have been forfeited for violations of the MSA.
These fines and other proceeds are deposited into the AFF. The fund primarily consists of
monetary proceeds from MSA enforcement actions, but also includes proceeds from enforcement
of select other marine resource laws, including provisions of the Lacey Act and the Endangered
Species Act. The MSA provides that the agency may use these monies for, among other things,
“any expenses directly related to investigations and civil or criminal enforcement proceedings,
including any necessary expenses for equipment, training, travel, witnesses, and contracting
services directly related to such investigations or proceedings.”1



OIG’S REVIEWS

Our examination of the AFF was part of a larger review of NOAA enforcement operations
requested by Undersecretary Lubchenco in June 2009.With respect to the AFF, we investigated
concerns raised by members of Congress and the fishing industry that in some cases NOAA was
imposing excessive fines on members of the fishing industry—to such an extent that the fines
seemed to constitute a form of bounty—because of the agency’s ability to levy fines and
penalties and then keep the proceeds to augment its budgets. Our work and the work of our
contractor KPMG in examining the AFF revealed a significant lack of accountability and
transparency—to the fishing industry, to the public, and even within NOAA itself.

In documenting our review of NOAA’s enforcement program, we issued reports in January, July,
and September 2010, and both the Secretary of Commerce and Dr. Lubchenco have taken action
to correct the problems with the AFF and with NOAA’s fishing enforcement practices in general.
In response to our work, NOAA has proposed or implemented many corrective actions,
particularly in the areas of enforcement leadership and management; policy, processes, and
regulations; workforce structure and balance; and communications and outreach to the fishing
industry. In my view, these actions represent real progress. While there is still more work to be
done to implement the many reforms directed by the Secretary and Undersecretary, there is a
commitment at the highest levels of the Department and NOAA to see these reforms through to
the end. As noted below, we are equally committed to follow up and audit NOAA’s
implementation of our recommendations.



EXAMINATION OF THE AFF

Our initial report in January 2010 included our early findings regarding the fund, but we were
limited in our ability to conduct a thorough review by several factors. First, despite OLE
reporting a balance of $8.4 million for the AFF as of December 31, 2009, officials could not
substantiate this figure; it was nearly impossible to isolate the monies comprising the AFF from
1
    As authorized by section 311(e)(1) of the MSA.


                                                     2

other funds used by NOAA. Additionally, while the AFF’s balance is included in the
Department’s overall annual financial statements, due to its relatively small size a separate audit
of the fund—which might have illuminated some of the AFF’s issues—had never been
completed.

Due to the fact that the fund had not been audited, my concern that the AFF lacked sufficient
internal controls, and the fact that we could not readily determine how NOAA had utilized the
AFF, my office contracted an outside firm, KPMG, to perform a forensic review of the AFF.
KPMG’s main tasks were designed to give us a clearer understanding of AFF operations and
internal controls. The firm’s findings, which are detailed in our July 2010 report, reflected a
marked lack of organizational attention to this important function:

   •	 At that time, no single unit or individual within NOAA had a detailed understanding of
      the AFF and how it functioned. Moreover, it appeared that there had been no prior
      attempts made to define the fund and its uses. As a result, KPMG received multiple—
      sometimes conflicting—definitions of the fund.

   •	 Decentralized operations resulting in inconsistent practices may have contributed to the
      confusion: OLE’s regions and headquarters, along with GCEL headquarters, had different
      requirements for AFF-related document retention and preservation. Consequently, the
      same types of documentation were often not present from one division or region to
      another, and it was difficult to determine what constituted a “complete” set of supporting
      documentation. KPMG found that 62 percent of 604 transactions it selected for further
      analysis (i.e., document review) did not have required supporting documentation, and 27
      percent did not have required approvals.

   •	 KPMG’s review also disclosed serious deficiencies in the fund’s management processes
      and internal controls. For example, at that time nearly every OLE special agent and
      enforcement officer was issued a purchase card regardless of the individual’s need for
      one. This practice was inconsistent with federal policies for managing purchase cards.
      KPMG also found evidence of attempts to circumvent single-purchase limits and
      competitive procurement procedures.

While KPMG performed its review, we focused on several high-risk AFF expenditure areas:

   •	 We investigated OLE’s acquisition and use of vehicles and vessels, finding that OLE
      used the AFF to purchase vehicles and vessels despite the fact that its policy at the time
      only explicitly authorized use of the fund to lease vehicles. For example, according to
      OLE, 200 vehicles were purchased—at a cost of about $4.6 million—predominantly with
      AFF monies. Additionally, the number of vehicles exceeded the number of OLE
      enforcement personnel on staff at the time by about 30.

   •	 We assessed international travel practices by OLE and GCEL employees and discovered
      that neither office had policy guidance for using the AFF for travel not directly related to
      investigations or enforcement proceedings. Between January 2005 and June 2009, OLE
      and GCEL charged over $580,000 to the AFF for international travel. However, based on
      our review of NOAA travel records, only about 17 percent of this travel was directly


                                                 3

       related to specific investigations or enforcement proceedings; the remaining 83 percent
       went for training or attending meetings and workshops.

   •	 We examined OLE’s Special Operations Fund (SOF), which pays for the office’s covert
      and undercover activities and operations, and determined that the SOF had similar
      problems that were identified with the AFF, including insufficient training for special
      agents on SOF policies and procedures, particularly for conducting and documenting
      special operations, and inconsistent methods for recording, approving, and supporting
      SOF deposits and expenditures.

Our findings are detailed in our July 2010 report. Since we issued that report, the Department
and NOAA have worked to improve AFF practices.



NOAA’S CURRENT REFORM EFFORTS

In all, our findings have led to 28 recommendations to NOAA for improving the transparency
and accountability of its enforcement programs and operations, including the AFF. According to
NOAA, to date 17 of our recommendations have been implemented, with 11 yet to be finalized.
However, only time will tell whether NOAA’s reforms have been institutionalized. We are
currently completing audit work to validate NOAA’s assessments of the status of these
recommendations.

Our 13 AFF-related recommendations suggested ways to improve NOAA’s management of the
fund, such as clearly defining the AFF, improving processes and controls, and centralizing
expenditures (as explained in appendix A). In response, NOAA developed a corrective action
plan that, if implemented correctly, should address our recommendations. NOAA has also made
the following improvements based on the findings in our various reports on fisheries
enforcement programs and operations:

   •	 Leadership and Management. Appointments of NOAA General Counsel; Assistant
      General Counsel for Enforcement and Litigation; Assistant Administrator, National
      Marine Fisheries Service; Interim Director of OLE; and Acting Special Agent-in-Charge
      of OLE’s Northeast Division. In addition, the senior GCEL attorney in the Northeast was
      reassigned away from enforcement duties to the Office of General Counsel for Natural
      Resources.

   •	 Policy, Process, and Regulations. Requiring high-level review of all proposed charges
      for alleged violations and of all settlements by the General Counsel for NOAA; finalizing
      a rule to place the burden of justifying a particular civil penalty or sanction on NOAA
      rather than the respondent in cases before Administrative Law Judges; developing a new
      penalty policy, including a revision of the penalty and permit sanction schedules; creating
      or reviewing and revising NOAA law enforcement and general counsel operations
      manuals; providing explanatory notes to enforcement case files; tracking priorities;
      establishing a new case tracking database that links enforcement and legal case
      management systems; providing public access to information on charges brought and


                                                4

       cases concluded; increasing management oversight of the AFF; and requiring justification
       and approval for any AFF expenditure greater than $1,000.

   •	 Workforce Structure. Freezing the hiring of OLE criminal investigators until a workforce
      analysis is completed and approved by the Under Secretary that addresses the appropriate
      mix of criminal investigators and civil enforcement officers. It is our understanding that
      NOAA is close to completing its workforce analysis.

   •	 Communications and Outreach. Developing a communications plan to provide greater
      outreach to fishermen and fishing communities, and other fisheries stakeholders;
      increasing communications with the Fishery Management Councils, especially in the
      Northeast; and holding a National Enforcement Summit with over 60 stakeholders, which
      was broadcast via the Internet and remains available on NOAA’s website. As a result of
      our work, OLE has established a liaison with the fishing communities in the Northeast
      region. The office also contracted with an outside firm to conduct a regional assessment
      and review of the fishery management process in New England, which has included
      recommendations for NOAA to improve collaboration as well as simplify governance
      and communication.

   •	 Special Master’s Review. In line with a recommendation in our September 2010 report,
      the Secretary promptly appointed a Special Master to conduct an independent evaluation
      of cases we identified as being problematic. In May 2011, after reviewing the Special
      Master’s April report, the Secretary announced that $649,527 in penalties would be
      remitted to 11 individuals or businesses after it was concluded that the NOAA
      enforcement program had in some instances “overstepped the bounds of propriety and
      fairness.” Currently, the Special Master is examining approximately 80 additional
      complaints that were received during the application period; those that meet the criteria
      set forth by the Secretary will receive further analysis and evaluation.



OUR LATEST WORK

We are following up on our past work with a deeper examination of the AFF based on NOAA’s
action plan. With the understanding that some of NOAA’s corrective actions—while technically
completed—may still be untested, we will carry out the following reviews and investigations:

   •	 We are currently examining the adequacy of NOAA’s definition of AFF assets, including
      the completeness and accuracy of its funding sources. We are also determining whether
      NOAA has appropriately defined allowable uses of fund assets and developed controls
      over collections and disbursements. We began our review in March 2011 and expect to
      release the results of our work this fall.

   •	 NOAA contracted with an outside accounting firm to audit the AFF’s financial
      statements and certain OLE and GCEL micropurchase transactions occurring between FY
      2005 and FY 2010. The micropurchase transaction audit is expected to cover purchase
      requests and credit card transactions that do not meet NOAA’s $1,000 threshold for


                                               5

       additional senior-level approval. As part of our review of NOAA’s definition of the AFF,
       we are gaining an understanding of the contractor’s audit approach to establish whether
       the approach was designed to provide reliance on the AFF cash balance as of March 31,
       2011, and whether the firm is able to give an opinion on the statements.

   •	 We are presently investigating the acquisition and use of a vessel purchased with AFF
      monies in OLE’s Northwest Division; certain travel expenses charged to the AFF,
      including foreign travel; and the use of the AFF for contract services provided by a
      financial analyst and an associate.

Finally, we are also analyzing NOAA's progress in implementing the corrective actions planned
in response to our January 2010 report. Our analysis will include a determination of whether
NOAA is (a) implementing policies and procedures that increase the accountability and
transparency of GCEL and OLE operations, (b) progressing on its workforce analysis, (c)
establishing an outreach strategy that will improve communications with Fishery Management
Councils and fisheries stakeholders, and (d) improving GCEL and OLE management information
systems.



FURTHER ACTIONS TO IMPROVE THE AFF

NOAA issued its revised policy regarding prohibited and approved uses of the AFF in March
2011. The policy, which is available on the agency’s website, acknowledges that NOAA
continues to interpret the MSA to provide broad statutory authority for use of the AFF. NOAA
states that its policy restricts uses of AFF monies short of what it believes is authorized by law as
a means to guard against negative perceptions of its use of AFF proceeds; for example, the
policy specifically prohibits the use of the AFF for any vehicle or vessel purchases or leases.

NOAA’s new policy provides further guidance for travel and training expenses; however,
ambiguities may still exist. For example, the policy further discusses which travel expenses are
prohibited, but the MSA could be read as having a stricter standard. It would be helpful to further
clarify how each of the approved travel expenses meets the MSA standard, particularly those
expenses for international meetings and negotiations. Additionally, while the NOAA policy lists
approved training expenses, it is not clear how some of these expenses meet the MSA
requirement that expenses be “directly related” to investigations and enforcement proceedings. It
is also unclear whether some of the approved training expenses include associated travel
expenses or just the cost of the training course. A stronger definition of these expenses may be
warranted.

The use of AFFs in the federal government is not widespread, but several federal agencies do
have such funds in place to offset expenses associated with criminal investigations. These funds
can be derived from civil judicial, administrative, or criminal forfeitures. In function and
operation, NOAA’s AFF is something of a misnomer; the fund predominantly represents civil
penalties, and would be better termed as such.




                                                  6

We conducted a general review of the policies and procedures of two major agencies—the
Departments of Justice (DOJ) and Treasury—that use asset forfeiture funds as part of their law
enforcement efforts. Our review of these policies and procedures, coupled with the
recommendations in our July 2010 report, identified several best practices for managing such a
fund:

   •	 That the fund be maintained as a distinct entity with expert guidance on policy,
      operations, financial management, and law. A separate accounting of fund assets
      establishes an auditable control environment that will reduce the chance for
      misappropriation and abuse. It also requires a well-defined financial management
      structure for deposited and expended funds, bringing critical transparency to the AFF.

   •	 That the fund be included in budget appropriations providing technical analyses of fund
      assets, as well as information on long-term status and estimated availability of NOAA’s
      AFF resources.

   •	 That standardized policies and procedures be established for vehicle and purchase card
      use and adherence to the policies be monitored though centralized reviews and approvals
      of AFF transactions and activities in these areas.

   •	 That annual reports on the AFF, including audited financial statements and a strategic
      plan on investigative initiatives, be completed and made available via the agency’s
      website.

It is clear that the AFF has been poorly managed in the past. However, if NOAA continues to
show its commitment to improving the fund by implementing a rigorous process for operating it,
putting robust management and strong internal controls in place, actively monitoring policies and
procedures on a routine basis, and ensuring that these measures allow for transparency and
accountability, Congress can have confidence that the AFF will be a valuable tool for enforcing
fishing laws and regulations and ensuring equitable treatment for the many hard-working
members of the industry who operate by the rules.

                                              ----

In conclusion, Mr. Chairman, NOAA is working to ensure that the AFF is meeting its
requirements and that the agency is effectively and fairly enforcing fishing laws. But proactive
monitoring and investigation are still needed in order to prevent error and abuse and protect
those who earn their living from America’s marine territories.
This concludes my prepared statement, and I will be pleased to respond to any questions you or
other subcommittee members may have.




                                                7

Appendix A: Recommendations from July 2010 OIG Report, NOAA’s Corrective Actions,
                          and Status of Reform Efforts

Recommendation from July 2010               NOAA’s Proposed Corrective               Status as
Report                                      Action                                   of April 18,
                                                                                     2011, as
                                                                                     Reported
                                                                                     by NOAA

Precisely define the AFF and                Develop AFF definition, contract for     Partially
comprehensively audit it, initially and     independent confirmation of balance      complete.
annually. A comprehensive audit should      and audit of AFF financial statements,   Audit in
entail detailed transaction testing and     and implement routine monitoring and     progress.
additional data mining.                     oversight procedures.

Communicate the results of initial and      Notify senior leadership and outside     Incomplete.
annual audits of the AFF to NOAA and        stakeholders of audit results.           Audit report
Department of Commerce senior                                                        due mid-
leadership, as well as outside                                                       June 2011.
stakeholders (Congress, Office of
Management and Budget, etc.).

Specifically identify and account for the   Include AFF budget information in        Complete.
AFF in NOAA’s annual budget                 congressional justification and NOAA
submissions.                                budget summary.

Modify OLE’s and GCEL’s processes for       Determine the budget and spending        Complete.
budgeting and spending AFF proceeds         processes at Justice and Treasury,
to be comparable to other agencies with     develop internal budget process
similar asset forfeiture funds; and         based on best practices, enter AFF
benchmark the asset forfeiture fund         budget operating plan into Commerce
programs of the Treasury and Justice        systems, and produce monthly
Departments for applicable best             reports.
practices.

Document a formal interpretation of the     Prepare legal memorandum on              Complete.
statutory language in the Magnuson-         applicable MSA provisions and
Stevens Act as to authorized uses of the    develop formal policy on
AFF; and establish and update formal        authorized/unauthorized uses of the
policy for OLE and GCEL to clearly          fund and splitting costs between AFF
prescribe both authorized and               and appropriated funds.
unauthorized expenditures of AFF
monies.

Take steps to greater centralize AFF        Formalize the new expenditure            Complete.
approval processes for expenditures.        approval process through a
                                            centralized office.




                                                8

Recommendation from July 2010               NOAA’s Proposed Corrective               Status as
Report                                      Action                                   of April 18,
                                                                                     2011, as
                                                                                     Reported
                                                                                     by NOAA

Ensure that approved AFF expenditure        Review and communicate document          Complete.
transactions have required                  retention policies, and implement
electronic/hard-copy supporting             procedures to ensure compliance.
documentation (a recurring KPMG
finding).

Develop improved processes to (a)           Design and deploy an approach for        Complete.
clearly identify and track AFF monies       recording, tracking, and reporting all
received and expended, and (b) ensure       AFF financial transactions through a
that AFF funds are not commingled.          single fund code.

Implement more stringent internal           Review KPMG data set, provide split      Complete.
reviews for split purchase card             purchase findings to management for
transactions (i.e., those involving the     action, and educate cardholders and
same credit card holder, date, vendor,      approving officials of credit card
and the same or different amounts) and      guidelines and responsibilities.
duplicate purchase transactions.

Determine the cost-effectiveness of         Develop guidance on leasing vs.          Complete.
General Services Administration-leased      purchasing vehicles, update existing
vs. purchased vehicles; establish formal    policies, and identify/address excess
policy for vehicle acquisition and          vehicle inventory.
management, based on operational
need; and apply appropriate disposition
procedures for excess vehicles.

Establish formal policy for which OLE       Revise policy on authorized use of   Complete.
personnel should be authorized use of       government vehicles, implement
daily take-home vehicles; and review        procedures to ensure compliance, and
and determine the number of “pool”          determine appropriate vehicle
vehicles per locale based on justified      inventory level.
need.

Review and set policy for which OLE         Review the number of purchase            Complete.
personnel should be authorized use of       cardholders and activity levels, and
purchase cards, based on operational        reduce to appropriate level.
need. Presently, nearly every OLE
special agent and enforcement officer is
issued a purchase card. This is not
consistent with current government-wide
policy for internal controls to limit the
risk of misuse of purchase cards.




                                                9

Recommendation from July 2010               NOAA’s Proposed Corrective            Status as
Report                                      Action                                of April 18,
                                                                                  2011, as
                                                                                  Reported
                                                                                  by NOAA

Determine whether NOAA’s inability to       Prepare legal memorandum that         Partially
adequately track AFF expenditures           addresses whether NOAA’s use of       complete.
constitutes a violation of any federal      AFF, subsequent to January 1, 2005,   Review fund
financial management law or standard.       gave rise to violations of            activity in
MSA requires that fines and penalties       laws/standards.                       progress.
imposed for violations of the Northeast
Multispecies Fishery Management Plan
are to be specifically used to enforce
that plan, but NOAA has not tracked the
use of these funds. The then-Director
was unfamiliar with this requirement
when we initially addressed it with him.

Source: OIG summary of NOAA’s corrective action plan, updated April 18, 2011




(OIG-11-028-T) 



                                                 10 

